             DEPARTMENT OF HEALTH AND HUMAN SERVICES                                Office of Inspector General
                                                                                     Office of Audit Services

                                                                                           REGION IV
                                                                               61 Forsyth Street, S.W., Suite3T41
                                                                                    Atlanta, Georgia 30303


                                         FEB 2 4 2009
Report Number: A-04-08-07005

Helen E. Jones-Kelly, Director
Ohio Department of Job and Family Services
30 East Broad Street, 32nd Floor
Columbus, Ohio 43215-3414

Dear Ms. Jones-Kelly:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (OIG), final report entitled "Follow-Up Review ofthe Medicaid Drug
Rebate Program in Ohio." We will forward a copy of this report to the HHS action official
noted below.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are
made available to the public to the extent that information in the report is not subject to
exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS
action official. Please refer to report number A-04-08-07005 in all correspondence.

                                               Sincerely,
                                             (/t)j._ k~     {nO     1-", ~
                                             \ ~            lJ->~~......
                                                        "

                                               Peter J. Barbera
                                               Regional Inspector General
                                                for Audit Services

Enclosure

HHS Action Official:

Jackie Gamer, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   FOLLOW-UP REVIEW OF THE
    MEDICAID DRUG REBATE
       PROGRAM IN OHIO




                    Daniel R. Levinson
                     Inspector General

                      February 2009
                      A-04-08-07005
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95 -452, as
amended, is to protect the integrity of the Department of Health and Human Serv ices (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components :

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and /or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issu es.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program oper ations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents O IG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questi onable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determ ination on these matters.
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   FOLLOW-UP REVIEW OF THE
    MEDICAID DRUG REBATE
       PROGRAM IN OHIO




                    Daniel R. Levinson
                     Inspector General

                      February 2009
                      A-04-08-07005
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act. For a manufacturer’s covered outpatient drugs to be eligible for Federal
Medicaid funding under the program, the manufacturer must enter into a rebate agreement with
the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States.
CMS, the States, and the drug manufacturers each undertake certain functions in connection with
the drug rebate program. In Ohio, the Ohio Department of Job and Family Services (the State
agency) administers the Medicaid drug rebate program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia (A-06-03-00048). Those audits found that only four
States had no weaknesses in accountability for and internal controls o ver their drug rebate
programs. As a result of the weaknesses, we concluded that States lacked adequate assurance
that all of the drug rebates due to the States were properly recorded and collected. Additionally,
CMS did not have reliable information from the States to properly m onitor the drug rebate
program.

In our previous audit of the Ohio drug rebate program (A -05-03-00042), we determined that the
State agency had generally established controls over the drug rebate program with two
exceptions: (1) it needed to improve its policies regarding the collection of interest for unpaid,
late, and disputed drug rebates and (2) it did not have adequate controls to monitor outstanding
drug rebate disputes and provide a hearing mechanism to resolve disputes. We recommended
that the State agency develop formal policies, procedures, and controls to: (1) follow up and
collect interest for unpaid, late, or disputed drug rebates and (2) monitor disputed rebate
amounts, including appropriate use of the hearing mechanism prescribed in the rebate agreement
between CMS and the manufacturers.

This current review of the Ohio drug rebate program is part of a nationwide series of reviews
conducted to determine whether States have addressed the weaknesses in accountability for and
internal controls over their drug rebate programs found in the previous reviews. Additionally,
because the Deficit Reduction Act of 2005 required States , as of January 1, 2006, to begin
collecting rebates on single source drugs administered by physicians, this series of reviews will
also determine whether States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Ohio drug rebate program and (2)
established controls over collecting rebates on single source drugs administered by
physicians.


SUMMARY OF RESULTS



                                                 i
The State agency had implemented the recommendations from our previous audit related to
interest collection and dispute resolution. In addition, the State agency had established controls
over collecting rebates on single source drugs administered by physicians. Therefore, we do not
offer any recommendations.




                                                 ii
                                                    TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION............................................................................................................1

     BACKGROUND .........................................................................................................1
       Drug Rebate Program ............................................................................................1
       Physician-Administered Drugs .............................................................................1
       Previous Office of Inspector General Reports .......................................................2
       Ohio Drug Rebate Program ...................................................................................2

     OBJECTIVES, SCOPE, AND METHODOLOGY .....................................................3
       Objectives ...............................................................................................................3
       Scope.......................................................................................................................3
       Methodology ...........................................................................................................3

RESULTS OF AUDIT .....................................................................................................4

     IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS .............................4

     PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS ..................................4




                                                                      iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low -income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS -approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in sect ion 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and the drug manufacturers each undertake certain
functions in connection with the drug rebate program. In Ohio, the Ohio Department of Job and
Family Services (the State agency) administers the Medicaid drug rebate program.

Pursuant to section II of the rebat e agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculate s
a unit rebate amount for each covered outpatient drug and provides the amo unts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of e ach covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R. This is part of Form CMS-64,
“Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” which
summarizes actual Medicaid expenditures for each quarter and is used by CMS to reimburse
States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927 (a) of the Act
and requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.


1
 This provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
after January 1, 2008.


                                                        1
In Ohio, physician-administered drugs are billed to the State Medicaid program on physician
claim forms using procedure codes that are part of the Healthcare Common Procedure Coding
System. The NDC is not included on t he physician claim form. The procedure code identifies a
drug by its active ingredient(s) and identifies the number of drug units (billing units) allowed per
reimbursement for that procedure code. Because rebates are calculated and paid based on NDCs,
each procedure code must be converted to an NDC. Additionally, the billing units for a
procedure code may differ from the units used for rebate purposes (e.g., grams versus liters) .
Therefore, to determine rebates, the procedure codes must be converted int o NDCs for single
source drugs, and procedure code billing units must be converted into equivalent NDC billing
units.

Previous Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs i n
49 States and the District of Columbia. 2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate ass urance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly mo nitor the drug rebate program.

In our previous audit of the Ohio drug rebate pro gram (A-05-03-00042), we determined that the
State agency had generally established controls over the drug rebate program with two
exceptions: (1) it needed to improve its policies regarding the collection of interest for unpaid,
late, and disputed drug rebates and (2) it did not have adequate controls to monitor outstanding
drug rebate disputes and provide a hearing mechanism to resolve disputes. We recommended
that the State agency develop formal policies, procedures, and controls to: (1) follow up and
collect interest for unpaid, late, or disputed drug rebates and (2) monitor disputed rebate
amounts, including appropriate use of the hearing mechanism prescribed in the rebate agreement
between CMS and the manufacturers.

Ohio Drug Rebate Program

The State agency contracts with its fiscal agent, Affiliated Computer Services, Inc., to perform
all drug rebate program functions including the accounting for rebates on single source drugs
administered by physicians . The fiscal agent also convert ed the procedure code billing units into
equivalent NDC billing units .

The State agency reported an outstanding drug rebate balance of $140,375,073 on the June 30,
2006, Form CMS-64.9R. However, $105,026,349 of this amount related to quarterly billings
and was not past due as of June 30, 2006. Of the remaining $35,348,724 that was past due,
$12,208,436 was more than 1 year old. For the fiscal year ended June 30, 2006, the State agency
reported rebate billings of $ 621,209,574 and collections of $701,294,868.


2
 “Multistate Review of Medicaid Drug Rebate Programs” (A-06-03-00048), issued July 6, 2005; Arizona was not
included because it did not operate a drug rebate program.



                                                      2
This current review of the Ohio drug rebate program is part of a nationwide series of reviews
conducted to determine whether States have addressed the weaknesses in accountability for and
internal controls over their drug rebate programs found in the previous reviews. Additionally,
because the DRA required States, as of January 1, 2006, to begin collecting rebates on single
source drugs administered by physician s, this series of reviews will also determine whether
States have complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Ohio drug rebate program and (2)
established controls over collecting reba tes on single source drugs administered by physicians.

Scope

We reviewed the State agency’s current policies, procedures , and controls over the drug rebate
program and the accounts receivable data reported on Form CMS-64.9R as of June 30, 2006.

We did not include a weakness identified in the previous report related to the use of the hearing
mechanism prescribed in the rebate agreement between CMS and the manufacturers for
resolving disputes over rebate amounts owed to the State . The State agency was not required to
use the hearing mechanism , and our previous recommendation, which related to its use, was a
suggestion for the State agency to consider.

We performed our fieldwork at the State agency’s fiscal agent in Atlanta, Georgia , in September
2007.

Methodology

To accomplish our objective s, we:

       reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
        State Medicaid directors and other information pertaining to the Medicaid drug rebate
        program;

       reviewed the policies and procedures related to the fiscal agent’s drug rebate accounts
        receivable system;

       interviewed State agency and fiscal agent staff to determine the policies, procedures, and
        controls that related to the Medicaid drug rebate program;

       reviewed copies of Form CMS-64.9R for the period July 1, 2005 , through June 30, 2006;




                                                 3
      interviewed fiscal agent staff to determine the processes used in converting physician
       services claims data into drug rebate data related to single source drugs administered by
       physicians; and

      reviewed rebate billings and reimbursements for procedure codes related to single source
       drugs administered by physicians for the period January 1 through June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective s.

                                     RESULTS OF AUDIT

The State agency had implemented the recommendations from our previous audit related to
interest collection and dispute resolution. In addition, the State agency had established controls
over collecting rebates on single source drugs administered by physicians. Therefore, we do not
offer any recommendations.

IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS

In our previous audit of the Ohio drug reba te program, we determined that the State agency
needed to improve its policies regarding the collection of interest for unpaid, late, and disputed
drug rebates and that the State agency did not have adequate controls to monitor outstanding
drug rebate disputes and provide a hearing mechanism to resolve disputes.

Since our previous audit, the State agency and its fiscal agent had implemented our
recommendations related to interest collection and dispute resolution.

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency had established controls over collecting rebates for single source drugs
administered by physicians as required by the DRA. The State agency paid $10,550,257 in
claims for physician-administered drugs during the January through June 2006 period and billed
manufacturers for rebates totaling $1,572,204.




                                                 4
